               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-04242-61




    Combined Assessment Program 

            Review of the 

         Southeast Louisiana 

     Veterans Health Care System 

       New Orleans, Louisiana 





February 11, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                              Glossary
                 CAP            Combined Assessment Program
                 COS            Chief of Staff
                 CPRS           Computerized Patient Record System
                 CRRC           Community Resource and Referral Center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Southeast Louisiana Veterans Health Care System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PC             primary care
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network
                 VistA          Veterans Health Information Systems and
                                Technology Architecture
                 WH             women’s health




VA OIG Office of Healthcare Inspections
                    CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Continuity of Care ................................................................................................... 9

  WH.......................................................................................................................... 10

  Medication Management......................................................................................... 11

  Management of Workplace Violence ...................................................................... 12


Appendixes
  A. Facility Profile ....................................................................................................      13

  B. Strategic Analytics for Improvement and Learning ............................................                              14

  C. VISN Director Comments ..................................................................................                  17

  D. Facility Director Comments ...............................................................................                 18

  E. OIG Contact and Staff Acknowledgments .........................................................                            22

  F. Report Distribution .............................................................................................          23

  G. Endnotes ...........................................................................................................       24





VA OIG Office of Healthcare Inspections
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
December 9, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following two activities:

 Continuity of Care

 Management of Workplace Violence

The facility’s reported accomplishments were the Community Resource and Referral
Center for homeless veterans, non-veterans, and their families and the Interdisciplinary
Pain Management Program for veterans with complex pain issues who require
treatment from multiple specialties.

Recommendations: We made recommendations in the following four activities:
Quality Management: Ensure the Operative/Invasive Procedures Committee meets
monthly, includes the Chief of Staff as a member, and documents its review of National
Surgical Office reports.

Environment of Care: Ensure infection prevention risk assessments prioritize risks for
acquiring and transmitting infections.

Women’s Health: Enter orders for mammograms in the Computerized Patient Record
System.

Medication Management: Screen patients for tetanus vaccinations at clinic visits, and
document all required vaccine administration elements.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 17–21, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.



                                                                JOHN D. DAIGH, JR., M.D.
                                                              Assistant Inspector General for
                                                                 Healthcare Inspections

VA OIG Office of Healthcare Inspections                                                          i
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities:

   	 QM

   	 EOC

   	 Continuity of Care

   	 WH

   	 Medication Management

   	 Management of Workplace Violence

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FYs 2012, 2013, and 2014 through
December 9, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment



VA OIG Office of Healthcare Inspections                                                         1
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


Program Review of the Southeast Louisiana Veterans Health Care System,
New Orleans, Louisiana, Report No. 10-00558-176, June 17, 2010).

During this review, we presented crime awareness briefings for 210 employees.
These briefings covered procedures for reporting suspected criminal activity to the OIG
and included case-specific examples illustrating procurement fraud, conflicts of interest,
and bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
128 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

The VA and City of New Orleans’ CRRC
The CRRC is a collaborative, multi-disciplinary, multi-agency endeavor that provides
access to housing, medical care, crisis counseling, employment assistance, and
numerous other programs for homeless veterans, non-veterans, and their families.
While all of these services are critical to those in need, the primary goal of the CRRC is
to provide rapid, comprehensive housing assistance to the homeless, especially those
who are chronically homeless, and to assist individuals who are at imminent risk of
becoming homeless to maintain their current housing. Several community partners are
actively supporting CRRC operations to provide services in addition to those provided
by the facility. These include legal assistance and shower/laundry services.

Interdisciplinary Pain Management Program
The Interdisciplinary Pain Management Clinic was set up to help veterans with complex
pain issues who require treatment from multiple specialties. The clinic is held 2 days a
month, and patients are evaluated by pain physicians and assessed by a psychologist.
Depending on the need for interdisciplinary pain management service, days of operation
may be increased. A Tele-health Pain Education Group is held once a month. Patients
are educated about chronic pain, treatments offered at the facility, expectations, goal
setting, and responsible use of opioids prior to their appointment in the Interdisciplinary
Pain Management Clinic. Challenging cases are discussed at Interdisciplinary Pain
Committee meetings that are held once a month.                The Interdisciplinary Pain
Management Program is also responsible for the Chronic Opioid Management Program
Clinic, a telephone-based clinic that assists PC providers in managing patients on
chronic opioid medications.




VA OIG Office of Healthcare Inspections                                                         2
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                       Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the COS and
          included membership by applicable service
          chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                  3
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


NM               Areas Reviewed (continued)                                 Findings
NA     Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Operative/Invasive Procedures
       requirements:                                        Committee only met 5 times over the past
        An interdisciplinary committee with                12 months.
          appropriate leadership and clinical
                                                          Five months of Operative/Invasive Procedures
          membership met monthly to review surgical
                                                          Committee meeting minutes reviewed:
          processes and outcomes.
                                                           The COS was not a member.
        All surgical deaths were reviewed.
                                                           There was no evidence that National Surgical
        Additional data elements were routinely
                                                             Office reports were reviewed.
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                    4
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


NM              Areas Reviewed (continued)                                  Findings
NA     The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that the Operative/Invasive Procedures Committee meet monthly,
include the COS as a member, and document its review of National Surgical Office reports.




VA OIG Office of Healthcare Inspections                                                                  5
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the PC clinic area, two specialty care clinic areas, the urgent care clinic, two MH
clinics, and the x-ray and fluoroscopy areas in the radiology department. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
10 radiology employee training records. The table below shows the areas reviewed for this
topic. The area marked as NM did not meet applicable requirements and needed improvement.
Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
 X     An infection prevention risk assessment was       The facility’s infection prevention risk
       conducted, and actions were implemented to         assessment did not prioritize risks for
       address high-risk areas.                           acquiring and transmitting infections.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
NA     The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
NA     Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.




VA OIG Office of Healthcare Inspections                                                                  6
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


NM      Areas Reviewed for Radiology (continued)                            Findings
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
NA     MH EOC inspections were conducted every
       6 months.
NA     Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
NA     MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
NA     The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.


VA OIG Office of Healthcare Inspections                                                                  7
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


Recommendation

2. We recommended that processes be strengthened to ensure that infection prevention risk
assessments prioritize risks for acquiring and transmitting infections.




VA OIG Office of Healthcare Inspections                                                                  8
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


Continuity of Care
The purpose of this review was to evaluate whether clinical information from patients’
community hospitalizations at VHA expense was available to facility providers.3 Such
information is essential to coordination of care and optimal patient outcomes.

We reviewed the EHRs of 30 patients who had been hospitalized in the local community at VHA
expense during calendar year 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                     Areas Reviewed                                       Findings
       Clinical information was consistently available
       to the PC team for the clinic visit subsequent
       to the hospitalization.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  9
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA




WH
The purpose of the review was to determine whether the facility complied with selected VHA
requirements regarding the provision of mammography services for women veterans.4

We reviewed relevant documents and the EHRs of 33 women veterans, and we conversed with
key employees. The table below shows the areas reviewed for this topic. The area marked as
NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM                     Areas Reviewed                                       Findings
       The facility had a Women Veterans Program
       Manager.
       There was evidence that the facility had
       processes in place to ensure that WH care
       needs were addressed.
       Contracted mammography facilities were
       certified by the Food and Drug Administration
       or are in a State approved by the Food and
       Drug Administration to certify mammography
       facilities.
 X     Mammograms were initiated via a CPRS               Twenty-nine (88 percent) EHRs did not
       radiology order or VistA Radiology Package          contain a documented CPRS order for the
       order, and the results were linked to the           mammogram.
       mammography or breast study order.
       The mammography results were entered into
       the VistA Radiology Reports, and if the study
       was interpreted elsewhere, the report was
       scanned in VistA and electronically filed.
       Mammography results were documented
       using the American College of Radiology’s
       BI-RADS assessment category.
 NA    The VHA provider was notified of malignancy
       results within 3 days.
       Patients were notified of normal results within
       the required timeframe.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

3. We recommended that processes be strengthened to ensure that orders for mammograms
are entered in CPRS and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 10
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


Medication Management
The purpose of this review was to determine whether the facility complied with selected
requirements related to administration of vaccinations.5

We reviewed relevant documents and the EHRs of 30 patients who should have received
tetanus vaccinations, and we conversed with key employees.   The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                     Findings
 X     Staff screened patients for the tetanus           Seventeen (57 percent) EHRs lacked
       vaccination and administered the vaccination       documentation of tetanus vaccination
       when indicated.                                    screening.
 NA    Staff screened patients for the pneumococcal
       vaccination and administered the vaccination
       when indicated.
 X     Staff documented all required vaccine             None of the three patients who received
       administration elements.                           tetanus vaccinations had the edition date of
                                                          the Vaccine Information Statements
                                                          distributed documented in his or her EHR.
       Managers developed a prioritization plan in
       the event of a vaccine shortage.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

4. We recommended that processes be strengthened to ensure that clinicians screen patients
for tetanus vaccinations at clinic visits.

5. We recommended that processes be strengthened to ensure that clinicians document all
required vaccine administration elements and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  11
                         CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


Management of Workplace Violence
The purpose of this review was to determine the extent to which VHA facilities managed violent
incidents.6

We selected three assaults that occurred at the facility within the past 2 years, discussed them
with managers, and reviewed applicable documents. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                    Areas Reviewed                                        Findings
       The facility had policies on preventing and
       managing violent behavior.
       The facility had an employee training plan
       that addressed preventing and managing
       violent behavior.
       Selected incidents were managed
       appropriately according to the facility’s
       policies.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 12
                    CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                          Appendix A


             Facility Profile (New Orleans/629) FY 2014 through
                                December 2013a
Type of Organization                                                                     Secondary
Complexity Level                                                                         2-Medium complexity
Affiliated/Non-Affiliated                                                                Affiliated
Total Medical Care Budget in Millions (September 2013)                                   $344.1
Number of:
    Unique Patients                                                                     25,680
    Outpatient Visits                                                                   117,807
    Unique Employeesb                                                                   1,032
Type and Number of Operating Beds (November 2013):
    Hospital                                                                            N/A
    Community Living Center                                                             N/A
    MH                                                                                  N/A
Average Daily Census (November 2013):
    Hospital                                                                            N/A
    Community Living Center                                                             N/A
    MH                                                                                  N/A
Number of Community Based Outpatient Clinics                                             7
Location(s)/Station Number(s)                                                            Baton Rouge/629BY
                                                                                         Houma/629GA
                                                                                         Hammond/629GB
                                                                                         Slidell/629GC
                                                                                         St. John/629GD
                                                                                         Franklin/629GE
                                                                                         Bogalusa/629GF
VISN Number                                                                              16




a
    All data is for FY 2014 through December 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                   13
                                                     CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                                                           Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                             14
                                            CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                    15
                                                                                  CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


                                                                         Metric Definitions
 Measure                       Definition                                                                            Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)     A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                               A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                            A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                  A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                           A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)        A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                         A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                     A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                  A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                        A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                  A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)     A higher value is better than a lower value
 PC Wait Time                  PC wait time for new and established patients (top 50 clinics)                        A higher value is better than a lower value
 PSI                           Patient safety indicator                                                              A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                      A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                        A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction               A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                  A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                 A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction             A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                               A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                   A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                        A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                            16
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                      Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       January 24, 2014

          From:        Director, South Central VA Health Care Network (10N16)

       Subject: 	      CAP Review of the Southeast Louisiana Veterans Health
                       Care System, New Orleans, LA

             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. The South Central VA Health Care Network (VISN 16) has reviewed
          and concurs with the draft report submitted by the Southeast Louisiana
          Veterans Health Care System, New Orleans, LA.

       2. If you have questions regarding the information submitted, please
          contact Reba T. Moore, VISN 16 Accreditation Specialist at
          (601) 206-7022.




VA OIG Office of Healthcare Inspections                                                        17
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       January 14, 2014

          From: 	      Director, Southeast Louisiana Veterans Health Care System
                       (629/00)

       Subject: 	      CAP Review of the Southeast Louisiana Veterans Health
                       Care System, New Orleans, LA

             To:       Director, South Central VA Health Care Network (10N16)

       1. The Southeast Louisiana Veterans Health Care System (SLVHC)
          concurs with the finding and submits the attached comments.

       2. If you should have any questions regarding this Action Item, please
          contact Denise Overby-Reyes, RN, ACOS/Quality and Performance at
          (504) 565-4930.




VA OIG Office of Healthcare Inspections                                                        18
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Operative/Invasive Procedures
Committee meet monthly, include the COS as a member, and document its review of
National Surgical Office reports.

Concur

Target date for completion: Complete

Facility response: Southeast Louisiana Veterans Health Care System was unable to
produce the minutes originally requested for the OIG CAP survey when requested in
August 2013. Since that time, The Operative and Invasive Committee was re-organized
using the Surgical Workgroup Guidelines as outlined in the VHA Handbook.

Recommended changes were put in place October 1, 2013, and to date there have
been three substantial meetings (minutes reviewed by OIG on site during the survey).
The minutes are sent to the Executive Committee of the Medical Staff (ECMS).
Copies of the monthly meeting are regularly reviewed and monitored by Quality
Management.

Recommendation 2. We recommended that processes be strengthened to ensure that
infection prevention risk assessments prioritize risks for acquiring and transmitting
infections.

Concur

Target date for completion: Complete

Facility response: Southeast Louisiana Veterans Health Care System’s Infection
Prevention Risk Assessment has been revised to a numerical system that prioritizes risk
and serves as a guide for developing the Infection Prevention Plan.

Recommendation 3. We recommended that processes be strengthened to ensure that
orders for mammograms are entered in CPRS and that compliance be monitored.

Concur

Target date for completion: April 1, 2014




VA OIG Office of Healthcare Inspections                                                        19
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


Facility response: A new process was put in place by Ambulatory and Primary Care via
the Women Veterans Program Manager in August of 2013. This process includes
criteria that will ensure orders for mammograms are entered into CPRS.

   	 A facility report is used to identify Veterans that are due for a mammogram.

   	 The mammogram coordinator notifies each veteran via letter to contact the PACT
      team to schedule the test or send results if it was previously performed.

   	 Women Veterans Program Manager sends the list of veterans due for the
      mammogram to the RN Manager and PACT provider.

   	 A member of the PACT team is assigned to contact the veteran and schedule the
      test. They will also obtain results of the test if it was previously performed.

The Women Veterans Program Manager will use the following criteria to monitor
monthly compliance and send a report to QM each month. Monitoring will continue until
90% compliance is met.
All women who have completed a mammogram in specific month
Number of women who required mammograms in specific month

Recommendation 4. We recommended that processes be strengthened to ensure that
clinicians screen patients for tetanus vaccinations at clinic visits.

Concur

Target date for completion: July 1, 2014

Facility response: A clinical reminder for tetanus will be developed and implemented.
A random sample of 100 patient records per month of patients that should have had the
tetanus vaccine will be reviewed for compliance of administration of the tetanus vaccine.
Monitoring for compliance will continue until 90% compliance is achieved.
Number of patient records in compliance with receiving the tetanus vaccine
Number of patient records that should have received the tetanus vaccine

Recommendation 5. We recommended that processes be strengthened to ensure that
clinicians document all required vaccine administration elements and that compliance
be monitored.

Concur

Target date for completion: July 1, 2014

Facility response: The clinical reminder that is utilized to document all required vaccine
administration has been updated to include the edition date of the Vaccine Information
Sheet and all other required vaccine administration elements. This will strengthen the
process and ensure that clinicians document appropriately.


VA OIG Office of Healthcare Inspections                                                        20
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA


Quality Management will review a random sample of 100 patient records monthly to
ensure required documentation of the vaccine is in the medical record for those patients
who received it. The review will be performed monthly until 90% compliance is reached.

Patients receiving Tetanus vaccine and all vaccine administration elements documented
Number of patients who received Tetanus vaccine for the month




VA OIG Office of Healthcare Inspections                                                        21
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Gayle Karamanos, MS, PA-C, Team Leader
Contributors            Cathleen King, MHA, CRRN
                        Trina Rollins, MS, PA-C
                        Larry Ross, MS
                        James Werner, Special Agent In Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Julie Watrous, RN, MS




VA OIG Office of Healthcare Inspections                                                        22
                CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Southeast Louisiana Veterans Health Care System (629/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mary L. Landrieu, David Vitter
U.S. House of Representatives: Charles W. Boustany, Jr.; William Cassidy;
 Vance McAllister; Cedric Richmond; Steve Scalise


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        23
                      CAP Review of the Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                            Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  The reference used for this topic was:
	 VHA Handbook 1907.01.
4
  The references used for this topic were:
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1105.03, Mammography Program Procedures and Standards, April 28, 2011.
5
  The references used for this topic were:
	 Centers for Disease Control and Prevention guidelines and VHA recommendations.
6
  The reference used for this topic was:
	 VHA Directive 2012-026, Sexual Assaults and Other Defined Public Safety Incidents in Veterans Health
   Administration (VHA) Facilities, September 27, 2012. 




VA OIG Office of Healthcare Inspections                                                                            24
